OFFICE OF AUDIT
REGION 7
KANSAS CITY, KS




         U.S. Department of Housing and Urban
                     Development

   Real Estate Assessment Center Quality Control
         Reviews of Independent Auditors




2012-KC-0005                            SEPTEMBER 28, 2012
                                                                      U.S. DEPARTMENT OF
                                                  HOUSING AND URBAN DEVELOPMENT
                                                              OFFICE OF INSPECTOR GENERAL



                                                                            Issue Date: September 28, 2012

                                                                            Audit Report Number: 2012-KC-0005


TO:         David A. Vargas, Deputy Assistant Secretary, Real Estate Assessment Center,
              Office of Public and Indian Housing, PX

            //signed//
FROM:       Ronald J. Hosking, Regional Inspector General for Audit, 0AGA


SUBJECT: HUD’s Real Estate Assessment Center Did Not Always Ensure That Independent
          Public Accountants Followed Statement on Auditing Standards (SAS) 99
          Requirements


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the Real Estate Assessment Center
(REAC).

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted
at http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(913) 551-5872.




                                                Office of Audit Region 7
                                 400 State Avenue, Suite 501, Kansas City, KS 66101
                                      Phone (913) 551-5870, Fax (913) 551-5877
                           Visit the Office of Inspector General Website at www.hudoig.gov
                                        Date of Issuance
                                        U.S. Department of Housing and Urban Development,
                                        Real Estate Assessment Center Did Not Always Ensure
                                        That Independent Public Accountants Followed
                                        Statement on Auditing Standards 99 Requirements


Highlights
Audit Report 20XX-XX-XXXX


 What We Audited and Why                 What We Found

We audited REAC to determine            REAC did not always ensure that independent auditors
whether it ensured that independent     followed SAS 99 requirements. It did not identify
auditors followed Statement on          deficiencies in 10 of the 11 deficient engagements we
Auditing Standards (SAS) 99             reviewed. For the one other engagement, REAC
requirements.                           identified a SAS 99 deficiency but did not include it in
                                        its report.
 What We Recommend

We recommend that the Deputy
Assistant Secretary for Public and
Indian Housing create and implement
standard procedures that address each
SAS 99 requirement and conclusions
made on its review checklist.
                          TABLE OF CONTENTS


Background and Objective                                              3

Results of Audit
      Finding 1: REAC Did Not Always Ensure That Independent Public   4
                 Accountants Followed SAS 99 Requirements

Scope and Methodology                                                 6

Internal Controls                                                     7

Appendixes
A.    Auditee Comments and OIG’s Evaluation                            8
B.    Independent Auditor Engagements That Lacked Documentation       16
C.    Criteria                                                        17




                                          2
                     BACKGROUND AND OBJECTIVES

The U.S. Department of Housing and Urban Development’s (HUD) Real Estate Assessment
Center (REAC) is a division of the Office of Public and Indian Housing within HUD. REAC’s
mission is to provide and promote the effective use of accurate, timely, and reliable information
assessing the condition of HUD’s portfolio; provide information to help ensure safe, decent, and
affordable housing; and restore the public trust by identifying fraud, abuse, and waste of HUD
resources.

REAC gathers data pertaining to each program recipient, including physical inspections,
independent audits, management and performance assessments, and evaluations of resident
satisfaction with management performance. The Uniform Financial Reporting Standards Rule
(24 CFR (Code of Federal Regulations) Part 5) requires public housing authorities and
multifamily projects to electronically submit financial information to REAC. REAC analyzes
these financial data, develops objective performance scores, and delivers assessment results to
HUD program staff and others charged with preserving America’s housing stock.

REAC’s Quality Assurance Subsystem helps ensure that the data submitted are accurate and
complete, in part by conducting quality assurance reviews. Office of Management and Budget
Circular A-133 prescribes that certain recipients of Federal funds be audited each year. Some of
the recipients expend enough funds to require a “cognizant agency for audit” to perform reviews
of these audits. The remaining recipients have an “oversight agency for audit,” which may
assume the responsibilities of the cognizant agency, including the quality assurance reviews.
REAC has undertaken these roles for housing authorities, lenders, multifamily projects, and
other entities.

REAC’s reviews analyze the work of independent auditors to determine whether their audits and
attestation services of HUD-funded entities and Federal Housing Administration (FHA) lenders
were performed in accordance with applicable laws, regulations, and professional standards.
Those standards include Statement on Auditing Standards (SAS) 99, which requires the
independent auditors to perform specific steps to obtain reasonable assurance that the financial
statements are free of material misstatement attributable to error or fraud and to document their
steps.

Our objective was to determine whether REAC ensured that independent auditors followed
SAS 99 audit requirements.




                                                3
                                RESULTS OF AUDIT


Finding 1: REAC Did Not Always Ensure That Independent Public
Accountants Followed SAS 99 Requirements
REAC did not always ensure that independent public accountants (independent auditors)
followed SAS 99 requirements. This condition occurred because REAC did not have standard
procedures for addressing each SAS 99 requirement on its review checklist. As a result, it could
not provide assurance that the financial data submitted to HUD by program participants were
satisfactorily tested for material misstatements due to error or fraud.


 REAC Did Not Always Ensure
 that Independent Auditors
 Followed SAS 99

              REAC indicated that some independent auditors met SAS 99 requirements when
              they had incomplete documentation or had performed insufficient audit
              procedures. REAC’s review teams used the American Institute of Certified
              Public Accountants’ (AICPA) peer-review checklists to conduct their reviews.
              These checklists served as REAC’s workpapers and documented its methodology.

              Of the 32 audit engagements we analyzed as part of our review, the independent
              auditors lacked documentation that they sufficiently performed SAS 99
              procedures for 11 engagements (see appendix B). These 11 engagements were
              conducted by four of the nine independent auditors in our sample of reviews. In
              10 of the 11 engagements, REAC indicated on its checklists that the SAS 99
              requirements were met and thus did not report these deficiencies.

              For 1 of the 11 engagements, REAC identified a SAS 99 deficiency but did not
              include it in its review report. For this engagement, the reviewer correctly noted
              on the checklist that the independent auditor did not meet the SAS 99
              requirements. This audit engagement was one of five analyzed as part of a review
              of one independent auditor. REAC’s report on this independent auditor listed the
              deficiencies found during the review and cited specific standards not met, but it
              did not mention the identified SAS 99 deficiency.

 REAC Lacked Standard
 Procedures for Addressing
 Each SAS 99 Requirement

              REAC did not have standard procedures for addressing each SAS 99 requirement
              on its review checklist.

                                               4
           Reviewers did not have any manuals or other written guidance to follow and were
           instead instructed to use their judgment when completing the checklist. The
           checklist evaluating SAS 99 procedures included a general fraud compliance
           question and paraphrased the SAS 99 documentation requirements. The
           reviewers indicated independent auditor compliance with the fraud procedures by
           marking a checkbox next to the general question and only documented
           exceptions. Some of the reviewers answered the general question only, while
           others indicated compliance only if all of the documentation requirements were
           met.

Financial Statements Could
Contain Misstatements

           REAC could not provide reasonable assurance for the engagements in our limited
           sample that the financial statements submitted by the independent auditors were
           free of material misstatement due to fraud. Since REAC did not adequately
           identify and report independent auditors’ noncompliance with SAS 99, we could
           not conclude that the financial data submitted to HUD were accurate and free of
           material misstatement due to fraud.

Recommendation

           We recommend that the Deputy Assistant Secretary for the Real Estate
           Assessment Center

           1A.    Create and implement standard procedures that address each SAS 99
                  requirement and conclusions made on its review checklist.




                                           5
                         SCOPE AND METHODOLOGY

Our audit period covered the calendar years 2009 and 2010. We performed our fieldwork in
September and October 2011 at the following locations:

                    Entity/firm                         City
                    Real Estate Assessment Center       Washington, DC
                    Eide Bailly, LLP                    Boise, ID
                    Mayer Hoffman McCann                Irvine, CA
                    Moss Adams, LLP                     Seattle, WA
                    NSBN, LLP                           Beverly Hills, CA
                    Wallace Rowe & Associates           Pleasant Hill, CA

To accomplish our objective, we interviewed REAC staff, reviewed REAC’s quality assurance
review checklist, and compared the completed checklists to the independent auditors’
workpapers.

Our analysis of the quality assurance review fieldwork was limited to independent auditor
compliance with SAS 99 and fraud testing. We ensured that the checklists complied with the
relevant standards. We reviewed the independent auditors’ workpapers to determine whether the
independent auditors complied with SAS 99 audit requirements, and we reviewed REAC’s
checklists to evaluate its ability to accurately identify noncompliant independent auditors. Since
this was a limited review, we are not offering an opinion on any other area of REAC’s operations
or on its operations in general.

Sample Selections

During our audit period, REAC performed 24 quality assurance reviews. These 24 reviews
covered 87 audit engagements.

We selected 9 of the 19 quality assurance reviews that were performed during our audit period
that did not result in a referral. These 9 reviews accounted for 32 audit engagements and were
chosen based on the location of the independent auditors involved and travel considerations. Our
sample was not statistically selected. However, based on the results of all our audit procedures,
we expect our sample results to be representative of REAC’s overall processes. We asked the
nine independent auditors selected to send electronic copies of their workpapers to our office.
For the five that could not, local Office of Inspector General (OIG) staff conducted the reviews
on the independent auditors’ premises.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.


                                                6
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

               •      Controls to ensure that REAC followed applicable laws and regulations with
                      respect to monitoring independent auditors.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We evaluated internal controls related to the audit objective in accordance with
               generally accepted government auditing standards. Our evaluation of internal
               controls was not designed to provide assurance regarding the effectiveness of the
               internal control structure as a whole. Accordingly, we do not express an opinion on
               the effectiveness of REAC’s internal control.

 Separate Communication of
 Minor Deficiencies

               Minor deficiencies were reported to the auditee in a separate management
               memorandum.

                                                 7
                                    APPENDIXES

Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                      Auditee Comments




             MEMORANDUM FOR:                Ronald J. Hosking, Regional Inspector General
                                             for Audit, 7AGA

             FROM:                          David A. Vargas, Deputy Assistant Secretary,
                                             Real Estate Assessment Center, PX

             SUBJECT:                       Response of Real Estate Assessment Center to
                                             Discussion Draft Report – Real Estate
                                             Assessment Center’s Monitoring of
                                             Independent Public Accountants


                      The Real Estate Assessment Center (REAC) has reviewed your August
             30, 2012, letter and revised draft audit report regarding its monitoring activities
             related to Independent Public Accountants' (IPAs') compliance with the
             American Institute of Certified Public Accountants (AICPA) Statement on
             Auditing Standards (SAS) No. 99, Consideration of Fraud in a Financial
             Statement Audit. I would like to note for the record that this revised draft
             report was submitted for comment 12 months after your office first notified me
             of this audit (August 29, 2011) and more than six months after the first draft
             was issued (February 23, 2012). REAC provided your office with a response
             to the first draft via email on March 22, 2012 (see Exhibit 1).




                                              8
                    During a telephone conversation held on August 30, 2012, Tracey
            Vargas, Assistant Regional Inspector General for Audit, indicated to me that
            our response was due by September 7, 2012, so that your office could
Comment 1   complete this report prior to the end of HUD's fiscal year. Since REAC was
            provided only one week to respond (and given that the remaining finding is
            virtually unchanged from the prior draft), please refer to Exhibit 1 for REAC’s
            detailed response. I ask that you reproduce Exhibit 1 and the associated
Comment 2   appendices in your final report in their entirety. It is REAC’s position that the
            appendices are necessary to establish that the Inspector General’s (IG) auditors
            misapplied the requirements of SAS No. 99 during this audit and, therefore,
            reached erroneous audit conclusions.

Comment 3          REAC is encouraged that the revised draft no longer includes Findings
            2 and 3. As noted in our response to the first draft, the IG did not cite any
            relevant criteria for either of those findings. Appropriately, those findings
            were dropped. It is REAC’s position that the remaining finding should be
            deleted for the same reason.

Comment 4           In the revised draft the IG cites as relevant criteria SAS No. 99 (see
            Appendix C, Criteria, page 12). SAS No. 99 is an auditing standard that
            applies to financial statement audits performed by non-federal auditors. That
            standard does not create a duty or responsibility for federal agencies.
            Specifically, the revised draft does not cite any criterion which requires federal
            agencies to “ensure” that auditors comply with SAS No. 99.

                   More troubling, the report’s remaining finding and conclusion is not
Comment 5   based on sufficient, appropriate evidence in relation to the IG’s audit objective,
            which continued to change throughout the engagement (see discussion to
            follow). As further discussed in Exhibit 1, REAC reviewers tested IPA
            compliance with SAS No. 99 for each of the 32 audits selected by the IG. The
            IG’s auditors concurred with the REAC reviewer’s conclusions for 69%
            (22/32) of the audits they sampled.

Comment 6           For the remaining 10 engagements the IG reviewers concurred with
            REAC’s conclusions for at least five of the nine attributes sampled (see revised
            report Appendix B, page 10). REAC’s position is that the IG’s auditors
            misapplied SAS No. 99 for the four most commonly cited deficiencies in the
            IG’s report (see Exhibit 1). Even when the IG is given the benefit of the doubt
            on this issue, the total disagreement over the SAS No. 99 attributes tested
            occurred at a rate of less than 15%.

                   .




                                          9
Comment 7            The AICPA’s practice aid directs reviewers to conclude on whether an
             IPA substantively complied with SAS No. 99 requirements. Keep in mind that
             SAS No. 99 is only one of numerous auditing standards and requirements
             covered by a QCR. Accordingly, the objective of a QCR is to determine
             whether an IPA complied in all material respects with professional standards.
             In other words, reviewers are not required to ensure absolute compliance with
             SAS No. 99. Clearly, REAC tested IPA audits for compliance with SAS No.
             99 as part of its overall QCR approach, using a methodology generally
             accepted in the industry. The differences in professional judgment identified
             by the IG were not significant enough to support their conclusion. For the
             IPAs tested, the IG did not establish that REAC failed to ensure compliance
             with SAS No. 99.

Comment 5            Moreover, REAC is troubled by the ever-changing objectives and
             scope of this audit. In the original notification, REAC was told that the IG's
             objective was to determine whether REAC ensured the IPAs were adhering to
             SAS 99 and A-133 audit requirements (see Exhibit 1, Appendix A). However,
             page 4 of the initial draft indicates that the OIG, during the course of its audit,
             significantly changed its objective. That draft stated the objective was to
             “determine whether REAC ensured that IPAs followed SAS 99 audit
             requirements and whether it (emphasis added) followed Circular A-133
             requirements when reviewing audits conducted by IPAs.”

                     In the second draft report, the IG revised its audit objective again. That
Comment 8    report states that the objective is to “determine whether REAC ensured that
             independent auditors followed SAS 99 audit requirements.” The background
             and objective section of the revised draft (page 3) disingenuously implies that
             OMB Circular A-133 creates a duty for REAC to conduct QCRs of housing
             agencies, lenders, multifamily projects, and other entities. No such duty exists.
             As noted in REAC’s response to the first draft, the requirements of OMB
             Circular A-133 do not apply to audits of lenders and for-profit multifamily
Comment 9    projects. More importantly, the revised draft omits any mention of REAC’s
             relationship with the IG with respect to HUD’s duty and responsibility for
             performing QCRs.

Comment 10           Prior to the creation of REAC in 1998, the IG performed all QCRs of
             non-federal auditors for HUD under the provisions of the Inspector General
             Act of 1978, as amended. Starting in 1998 REAC entered into an informal
             arrangement with the IG to conduct QCRs of IPAs that performed audits of
             entities covered under the Uniform Financial Reporting Standards (UFRS)
             regulation. The IG continues to perform QCRs at its own discretion. In effect,
             REAC received an informal delegation of authority from the IG to perform
             QCRs. HUD is the only federal agency with this type of arrangement. At all
             other federal agencies, QCRs are performed by an agency’s IG.

                                        10
                     As I noted in our response to the first draft, since the IG plans to issue
Comment 10
             this report as final, we will temporarily suspend performing any QCR activities
             until the responsibility for this role is determined.

Comment 11          Your office has indicated that it is not the IG’s duty and responsibility
             under the Inspector General’s Act to conduct QCRs. In fact, you even
             provided an opinion from your legal counsel suggesting that QCRs are the
             HUD program office’s duty and responsibility, not the IG’s. REAC does not
             concur with that position.

Comment 10           Accordingly, upon your issuance of this report, I plan to refer this
             matter to the Council of the Inspectors General on Integrity and Efficiency
             (CIGIE). Since this issue impacts not only HUD but the entire federal
             Inspectors General community, I am requesting that the CIGIE provide
             guidance to federal agencies regarding the duty and responsibility to conduct
             QCRs.

                     Finally, REAC does not concur with the recommendation in the revised
Comment 12
             draft report. The IG wants REAC to create and implement standard
             procedures that address each SAS No. 99 requirement and conclusion
             documented on its review checklist. REAC finds this recommendation
             onerous and unnecessary.

                    As noted in Exhibit 1, during the period covered by this review, REAC
Comment 13
             was using AICPA peer review checklists to conduct and document its QCRs.
             This methodology is based on well-established industry practice using
             materials produced by the entity that wrote the standards. The AICPA’s
             checklist asks reviewers to reach an overall conclusion on an IPA’s
             compliance with SAS No. 99 (see Exhibit 1, Appendix C). It does not require
             reviewers to establish absolute compliance with each item listed on the
             checklist. Is the IG implying that the AICPA does not understand its own
             standards well enough to design a standard review methodology and checklist?

                     I am still hopeful that this matter can be resolved internally, without the
Comment 14
             IG issuing this report. If would like to discuss that possibility further, please
             feel free to free to contact me at (202) 475-8906.

             Attachment




                                      11
OIG Evaluation of Auditee Comments

Comment 1   Although REAC was provided only one week to respond to this second draft of
            the audit report, the only substantive changes made from the first draft were to
            eliminate the second and third findings, which we will issue in a management
            memorandum to REAC. REAC had already responded once to the remaining
            finding and we believed one week was sufficient. We appreciate REAC’s timely
            response.

Comment 2   REAC asked us to include its response and appendices to our first draft of the
            report (its Exhibit 1). However, Exhibit 1 consisted of 40 pages relating to the
            original draft report. Due to its size and based on our current policy, we did not
            include it in this report to keep the report manageable. A copy of Exhibit 1 in its
            entirety is available upon request by calling (913) 551-5870.

Comment 3   REAC stated in its response that Findings 2 and 3 of the original report did not
            cite any relevant criteria to support the findings so we dropped them from the
            report. However, our findings did include relevant criteria. After receiving
            REAC’s comments to the initial draft report we decided that the two findings
            were relatively minor and were more appropriately communicated in a
            management memorandum.

Comment 4   REAC’s stated mission is to provide and promote the effective use of accurate,
            timely, and reliable information by assessing the condition of HUD’s portfolio
            and to restore the public trust by identifying fraud, abuse, and waste of HUD
            resources. Further, REAC’s reports to the independent auditors after its reviews
            stated its objective, “…was to determine if the Firm performed these engagements
            in accordance with…generally accepted government auditing standards…”

            SAS 99 requires independent auditors to consider fraud in the financial statement
            audit. Therefore, for REAC to meet its mission and the objective of its quality
            control reviews, it should ensure that independent auditors comply with SAS 99.

Comment 5   REAC stated that it was troubled that our objective changed during the audit. We
            adjusted our objective during the audit to ensure that it accurately described the
            intent of the audit. According to the Yellow Book, section 7.07, planning is a
            continuous process throughout the audit and auditors may need to adjust the audit
            objectives as work is being completed. During the planning stage of the audit, we
            determined that Circular A-133 applied to the reviewer of independent auditors as
            well as to the independent auditors themselves and adjusted our objective
            accordingly.

Comment 6   REAC’s response states that we misapplied SAS 99 for the four most commonly
            cited deficiencies in our report. However, for each of the11 sampled audits, the
            independent auditor’s files did not document that it adequately performed SAS 99

                                             12
            procedures. When reviewing these files, we used the same checklist that REAC
            used during its reviews but did not come to the same conclusions as REAC.
            REAC’s files did not adequately document how it reached its conclusions and its
            reviewers could not tell us what made them determine that SAS 99 testing was
            adequate when we determined that it was not.

Comment 7   We understand REAC’s quality assurance reviews did not focus solely on the
            independent auditors’ compliance with SAS 99. However, our objective was to
            determine whether REAC ensured that independent auditors followed SAS 99
            requirements. Our objective was not to determine whether REAC identified
            material misstatements caused by fraud or that the independent auditors failed to
            identify such fraud as a result of the purported audit failures. The differences in
            our conclusions were not a case of differences in professional judgment, but a
            case of documentation. The REAC reviewers did not document the reasoning for
            their conclusions, could not later tell us why they came to the conclusions they
            did, and the independent auditor workpapers did not support that SAS 99 work
            was properly executed.

Comment 8   In accordance with OMB Circular A-133, the cognizant agency for audit shall
            obtain or conduct quality control reviews of selected audits performed by non-
            Federal auditors and provide the results, when appropriate, to other interested
            organizations. An auditee that does not have a designated cognizant agency for
            audit will be under the general oversight of a Federal agency. The oversight
            agency for audit may assume all or some of the responsibilities normally
            performed by a cognizant agency for audit. In performing quality control reviews
            of audits completed by independent auditors and making referrals of those
            independent auditors as appropriate, to the respective State licensing agencies and
            professional bodies for disciplinary action, REAC has assumed some of the
            responsibilities normally performed by a cognizant agency.

            We concurred that OMB Circular A-133 did not apply to lenders and multifamily
            projects. However, HUD requires these entities to submit annual audited
            financial statements, which are subject to SAS 99. All independent auditors must
            comply with SAS 99 regardless of whether they are subject to the Single Audit
            Act. Also, HUD Handbook 2000.04 REV 2, which applied to for-profit entities,
            dictated that audits must be conducted in accordance with the Yellow Book,
            which encompasses SAS 99. Because REAC reviewed these independent
            auditors, and included reviews of SAS 99 in its quality control review
            methodology, we included these reviews within the scope of our audit.

Comment 9   REAC stated that the revised draft omitted any mention of its relationship with
            the IG with respect to HUD’s duty and responsibility for performing quality
            control reviews. This relationship was not relevant to the objective of our audit.
            Whether it was the OIG’s or HUD’s duty to conduct quality control reviews,
            REAC was performing these reviews and it had the duty to ensure that



                                             13
              independent auditors performed their audits in accordance with requirements,
              including SAS 99.

Comment 10 REAC stated that if we issue the report, it intends to suspend its quality control
           reviews until the responsibility for performing the quality control reviews is
           determined. OMB Circular A-133 is clear that the agency, not the OIG, is
           responsible for conducting the reviews. REAC has been conducting these reviews
           for about 15 years and from a practical standpoint, HUD, not the OIG, has the
           greater interest in ensuring that audits are performed correctly. HUD uses the
           A-133 reports to oversee and monitor its programs and REAC’s reviews help
           ensure that the financial reports submitted by the program participants are
           reliable.

Comment 11 The Inspector General Act of 1978, as amended, imposed a duty and
           responsibility on the Inspector General to: 1) comply with the standards
           established by the Comptroller General in the performance of any audits
           performed by the OIG; 2) establish guidelines for when to use the services of
           independent auditors in performing internal program audits of HUD; and 3)
           assuring that any work performed by non-Federal auditors hired by OIG or HUD
           or both to perform those internal audits complies with the standards established by
           the Comptroller General. This did not impose an obligation on the OIG to assure
           such compliance with regard to the audit work of independent auditors hired by
           grantees or other program participants that did not have a contract with OIG or
           HUD or both.

              The IG Act of 1978, which granted the OIG broad investigative powers, together
              with the applicable provisions of the regulations and HUD Handbook provisions,
              gave the OIG full authority to access to all books, papers, and records of
              independent auditors for purposes of a quality control review or audit. However,
              the IG Act of 1978 does not require the OIG to conduct quality control reviews.
              Moreover, the Single Audit Act imposes the duty and responsibility to monitor
              and review the work of independent auditors performing Single Audit Act audits
              on HUD.

              For all other audits performed by independent auditors of HUD grantees,
              recipients and participants not conducted in accordance with OMB Circular A-
              133 (e.g. audits of FHA-approved lenders) there is no clear statutory or handbook
              provision that imposes an obligation to monitor or review independent auditors.
              However, all such audits must be filed with HUD and the audits are a primary tool
              for HUD program managers to ensure compliance with program rules and
              regulations. Since the department monitors the performance of its program
              recipients and participants through direct performance monitoring and review of
              financial statements, it needs to review all audits for compliance with generally
              accepted auditing standards, generally accepted government auditing standards,
              and OMB Circular A-133 as a condition of acceptance.



                                              14
Comment 12 REAC believes the recommendation is onerous and unnecessary. We do not
           agree. The REAC reviewers did not document the reasoning for their conclusions
           so they could not later explain why they came to the conclusions they did even
           though the independent auditor workpapers did not support that SAS 99 work was
           properly executed. The additional documentation does not need to be extensive,
           but is necessary to support the conclusions made by the reviewers.

Comment 13 REAC accurately explains that the AICPA’s peer review checklist asks reviewers
           to reach an overall conclusion on an independent auditor’s compliance with SAS
           No. 99, but does not require that reviewers establish absolute compliance with
           each item on the checklist. However, that does not address the point of our
           finding. The point of the finding is that REAC did not always identify
           independent auditor noncompliance with SAS 99 requirements and its files,
           including the completed checklists, did not include support for its conclusions.

Comment 14 REAC suggested we resolve the issue internally without issuing the report.
           However, the Yellow Book, section 8.03 requires us to issue an audit report
           communicating the result of each completed performance audit.




                                             15
Appendix B

  INDEPENDENT AUDITOR ENGAGEMENTS THAT LACKED
                 DOCUMENTATION
AICPA checklist’s SAS 99 documentation               Independent auditors’ engagements (11 of the 32 reviewed)
requirements                                     1     2        3   4     5     6      7     8     9     10      11
Discussion among engagement personnel in
planning the audit regarding the
susceptibility of the entity’s financial         Y     Y        Y   Y     Y     Y     Y     Y      Y     Y       N
statements to material misstatement due to
fraud.
Inquiries of management and others within
                                                 Y     Y        Y   Y     Y     Y     Y     Y      Y     Y       N
the entity about the risks of fraud.*
Consideration of preliminary analytical
procedures including procedures specifically     Y     Y        Y   Y     Y     Y     Y     Y      Y     N       Y
related to revenue.
Other procedures performed to obtain
information necessary to identify and to
                                                 N     Y        Y   Y     Y     Y     Y     Y      Y     Y       Y
assess the risks of material misstatement due
to fraud.
Specific risks of material misstatement due
to fraud that were identified and a
description of the auditor’s overall and         Y     Y        Y   Y     Y     Y     Y     Y      Y     Y       N/A
specific responses to those risks, if not
adequately mitigated.
The auditor’s reasons supporting a
conclusion that improper revenue
                                                 Y     N        N   N     N     N     N      Y     N     N       Y
recognition is not a risk of material
misstatement due to fraud.
Results of the procedures performed to
further address the risk of management
                                                 N     N        N   N     N     N     N      N     N     N       N
override of controls, including identification
of journal entries tested.*
Other conditions and analytical relationships
that caused the auditor to believe that
additional auditing procedures or other
responses were required and any further          N     N        N   N     N     N     N      Y     N     N       N/A
responses the auditor concluded were
appropriate to address such risks or other
conditions.
The nature of communications about fraud
made to management, the audit committee,       N/A N         N     N     N      N     N    N/A     N     N       N/A
and others.*
* Wording varied slightly between versions of the checklist.
Key:
Y        Independent auditor had sufficient documentation of sufficient procedures.
N        Independent auditor lacked sufficient documentation of sufficient procedures.
N/A      Documentation or procedure was not applicable.


                                                           16
Appendix C

                                        CRITERIA


The Statement on Auditing Standards No. 99: Consideration of Fraud in a Financial Statement
Audit, also referred to as SAS 99, requires the auditor to conduct the following procedures to
obtain reasonable assurance about whether the financial statements are free of material
misstatement, whether caused by error or fraud.
        • Discuss among the audit team members to consider how and where the entity’s
           financial statements might be susceptible to material misstatment due to fraud and to
           reinforce the importance of adopting an appropriate mindset of professional
           skepticism.
        • Obtain the information needed to identify risks of material misstatement due to fraud.
        • Identify risks that may result in a material misstatement due to fraud.
        • Assess the identified risks after taking into account an evaluation of the entity’s
           programs and controls.
        • Respond to the results of the assessment.
        • Evaluate audit evidence.
        • Communicate about fraud to management, those charged with governance, and
           others.
        • Document the auditor’s consideration of fraud.


OMB Circular A-123, Management’s Responsibility for Interanl Control

   I.      INTRODUCTION
           “Management has a fundamental responsibility to develop and maintain effective
           internal control. The proper stewardship of Federal resources is an essential
           responsibility of agency managers and staff. Federal employees must ensure that
           Federal programs operated and Federal resources are used efficiently and effectively
           to achieve desired objectives. Programs must operate and and resources must be
           used consistent with agency missions, in compliance with laws and regulations, and
           with minimal potential for waste, fraud, and mismanagement.”




                                               17
